                                 CLOSEOUT FOR M93040027
                           This case was brought to O I G on March 8 , 1993, when we
                      received a telephone call from Dr. '                         ' (the
                           ainant) of the b  -                     at the1-1
                                                     The complainant amplified on his
                      allegations in subsequent letters and telephone conversations. The
                      complainant alleged that ar_ticlesl by Dr. - 4                 (the
                      subject) of                              (the institution) and his
deniatn!!?srotaroballoc                        ideas that had been misappropriated from a
                      proposal2 that the complainant submitted to NSF. The complainant
                      said he suspected that his proposal had been sent to the subject
                      for merit review and that the subject had violated the integrity of
                      NSF1s confidential merit review process. O I G determined that the
                      subject had indeed reviewed the proposal.
          The complainant alleged that the subject misappropriated the
     general idea in a part of the complainant' s proposal, the rationale
     for the work the complainant proposed to undertake, and certain
     important aspects of the complainant's research strategy. The
     complainant also alleged that the subject repeated an erroneous
     claim contained in the complainant's proposal. The complainant
     averred that the subject's repetition of this claim was evidence
     that the subject had used the complainant's proposal as a source of
     his ideas and that the subject's conclusions were not simply the
     logical outcome of applying the subject's scientific knowledge to
     interpreting the subject's data.
            O I G wrote to the subject.       We sent the subject a copy of the

             h he articles -are "




                                                   entitled "f-
                                                   ."  NSF declined to fund the
                                                    remain confidential.
                                        page 1 o.f 3                            M93-27
                      CLOSEOUT FOR M93040027
relevant portions of the complainant's proposal to aid him in
preparing his reply, but reminded him that the proposal remained
confidential.     The subject's reply to our letter did not
satisfactorily address our concerns. It also raised additional
concerns about a pattern of misconduct, manifested in the subject's
possible misuse of an unpublished manuscript that the complainant
had sent him, allegedly in confidence. This alleged misuse of the
unpublished manuscript did not involve an NSF proposal or award.
     We concluded that an investigation was necessary and informed
the institution of this conclusion. The institution informed us
that the subject, after receiving our letter, had himself informed
the institution of the allegations.       The institution further
informed us that it had initiated an inquiry into the matter and
that the inquiry committee was on the verge of concluding that the
allegations lacked substance. The institution informed us that,
because OIG had stressed that the complainant's declined proposal
was confidential, the subject had felt obliged not to share it with
the inquiry committee. We also learned that the inquiry committee,
in addition to not examining the complainant's proposal, had not
interviewed the complainant.
     The institution requested that we delay further investigative
activity to permit the institution to complete its consideration of
the case. We sent the institution a letter explaining the issues
that we believed, at a minimum, an adequate investigation would
need to address. We also sent a copy of the complainant's proposal
for the institution's confidential use.
     The institution concluded that the subject had not committed
misconduct and supplied documentation and reasoning that supported
its conclusions. It concluded that the ideas the subject allegedly
misappropriated from the complainant's proposal were available in
the published literature and provided citations substantiating this
conclusion.    It noted that the timing of the subject's work
suggested that developments in the published literature, and not
exposure to ideas in the complainant's proposal, were the impetus
for the subject's initiation of the research in question. The
institution concluded that the subject's data included evidence
supporting the subject's interpretation. It therefore determined
that the subject's espousal of this interpretation was not evidence
that he had repeated the complainant's scientific error and misused
the complainant's proposal.
     OIG analyzed the institution's report and supplemental
information that the institution sent in response to questions we
raised about the report. We concluded that the report was accurate
and complete and that it supported the institution's findings.
     However, the history of the institution's handling of the case
                           page 2 of 3                      M93-27
                      CLOSEOUT FOR M93040027
caused us to have special concerns about whether its ultimate
conclusions had been influenced by a predisposition not to find
misconduct. We were especially concerned about the institution's
apparent readiness to draw conclusions in the absence of necessary
evidence and about its initial willingness to permit scientists
with a close professional relationship to the subject to play key
roles in its examination of the case. Our concerns were heightened
by the fact that the institution had received information impugning
the complainant's motives. We were worried that this information
might have inappropriately colored the institution's view of the
complainant's allegations against the subject. OIG consulted a
scientist knowledgeable about this area of research but unfamiliar
with the investigative history at OIG and the institution. The
scientist shared the judgment of OIG and the institution that the
evidence in the factual record in no way justified a finding of
misconduct.
     OIG determined that, because the NSF-related allegation of
misconduct was not supported by the evidence, the allegation
concerning a pattern in activities not related to NSF fell outside
our jurisdiction. The institution's report concluded that this
allegation lacked substance.
     This investigation is closed, and no further action will be
taken on this case.




                           page 3 of 3
